No. 19-1224
In The
Supreme Court Of The

United States

Jeremiah F. Manning,
Petitioner,
v.

Lucy J. Kim
Respondent.

On Petition For A Writ of Certiorari
To The Supreme Court of California

PETITION FOR REHEARING

Jeremiah F. Manning
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

QUESTIONS PRESENTED
I. The public record shows that Judge
Susan Greenberg of the California
Superior Court of San Mateo County
accepted campaign contributions from
Respondent’s attorneys well in excess of
the statutory limit ($1500) that required
her disqualification and she declined to
recuse herself and failed to disclose this
to Petitioner for over a year thereby
depriving him of the exercise of his
peremptory challenge as provided to
him by California law, and then refused
to recuse herself upon motion, instead
striking Petitioner’s disqualification
motion and later entering judgment on
child custody against Petitioner, The
question presented is whether Judge
Greenberg’s refusal to recuse herself
and failure to timely and accurately
disclose the campaign contributions to
the Petitioner violated the Due Process
and Equal Protection Clauses of the
Fourteenth Amendment.

11

II. The record also shows that Judge
Greenberg accepted campaign
contributions from Respondent’s
attorneys well in excess of the $100 that
under California law required Judge
Greenberg to timely and accurately
disclose them, and that Judge
Greenberg failed to disclose them for
over a year in contravention of said
statute while making ruling after ruling
against Petitioner, including rulings
involving the fundamental
Constitutional rights to an attorney and
cross-examination, and then made an
incomplete, inaccurate and misleading
disclosure after the child custody phase
of trial had been completed and
subsequent to her almost
contemporaneous recusal of herself for
the same reason in a similar matter also
involving child custody. The question
presented is whether Judge Greenberg’s
failure to recuse herself where she had
accepted excessive campaign
contributions and failed to disclose them
as required by law, but did
contemporaneously recuse herself in a
similar matter where both parties were
represented by counsel, violated the
Fourteenth Amendment.

Ill

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
There are no additional parties to
this case other than those named in the
caption, and neither party is a non­
governmental corporation for which
disclosure is required as specified in
Rule 29.6.

IV

TABLE OF CONTENTS
Page
QUESTIONS
PRESENTED
PARTIES TO THE PROCEEDING
AND RULE 29.6
STATEMENT...................................

1

..in

TABLE OF
CONTENTS

IV

TABLE OF AUTHORITIES

vi

OPINION/REVIEW
BELOW...................

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS
INVOLVED....................................... 2
PETITION

3

V

TABLE OF CONTENTS(continued)
Page

I.

INTRODUCTION

3

II. BASIS FOR PETITION

4

III. FACTUAL BACKGROUND
AND ARGUMENT...............

7

IV. CONCLUSION

12

VI

TABLE OF AUTHORITIES
AUTHORITY
Page(s)
CASELAW
Daniel u. Paul,
395 U.S. 298, 305 (1969)

White v. Gaetz, 588 F.3d 1135,
1137 n. 2 (7th Cir. 2009)...........

7

7

CONSTITUTIONAL PROVISIONS
US. Const, amend. XIV, § 1

2

STATUTES
28U.S.C. § 1257(a)..........................
California Code of Civil Procedure

2

Fed. R. App. P. 10(e)(2)(C)

7

Fed. R. Evid. Rule 201(c)(2)

7

Vll

TABLE OF AUTHORITIES
AUTHORITY
Page(s)
STATUTES(Continued)

California Code of Civil Procedure
§170.1(a)(9)(C)

3

Canon 3E of the California Code of
Judicial Ethics....................................

7

PETITION FOR REHEARING

Petitioner Jeremiah F. Manning
respectfully submits this supplemental
brief in support of his petition for a writ
of certiorari to review the judgment of
the Supreme Court of California.
OPINION/REVIEW BELOW
The denial of Petitioner’s Petition
for Review by the Supreme Court of
California was ordered on June 26,
2019. Pet. App. A27. The Opinion of
the California Court of Appeals for the
First District dated April 10, 2019 is
available in the Appendix. Pet. App.
A2. The Court of Appeals denied
Petitioner’s Rehearing Petition on April
30, 2019. Pet. App. A25. Judge
Greenberg’s September 16, 2016
Judgment is available in the Appendix.
Pet. App. A29. Petitioner includes his
motion to disqualify Judge Greenberg
and his Rehearing Petition to
demonstrate that the Constitutional
issues raised herein were raised below
and for the arguments and information
contained therein. Pet. App. A86 and
A109, respectively.

2

JURISDICTION
The Supreme Court of California
entered its denial of Petitioner’s Petition
for Review on June 26, 2019. The
jurisdiction of this Court is invoked
under 28 U.S.C. § 1257(a).

CONSTITUTIONAL PROVISIONS
INVOLVED
The Fourteenth Amendment to
the U.S. Constitution provides, in
relevant part:
No State shall . . . deprive
any person of life, liberty,
or property, without due
process of law; nor deny to
any person within its
jurisdiction
the
equal
protection of the laws.
US. Const, amend. XIV, § 1.

3

PETITION FOR REHEARING
I.

Introduction
A party who has made significant campaign

contributions to a trial judge has an advantage over
an adversary who has not, particularly where the
judge and the contributing party do not disclose such
campaign contributions to the non-contributing
party.1 This can affect the contributing party’s
litigation strategy, resulting in that party making
unreasonable demands, foregoing fair settlement
opportunities, and conducting scorched earth battles
over clear-cut issues that are antithetical to justice
and contrary to the best interests of the parties and
1 In this case, these campaign contributions were de
jure significant under California law and were
required by statute to be disclosed at the earliest
reasonable opportunity. California Code of Civil
Procedure § 170(a)(9)(C).

4
their families. This high conflict strategy is made
possible where the finger of campaign contributions
weighs heavily on the scales of justice. Such is the
situation in this case.

II.

Basis for Rehearing Petition
Pursuant to Supreme Court Rules 44.2 and

21.2(c), Petitioner asks this Court to grant his
rehearing petition and take judicial notice of the
April 20, 2016 Trial Court Order, attached hereto as
Exhibit A, that evidences the fact that Petitioner was
in fact a resident of the city of Palo Alto, CA as of the
date of judgment (September 16, 2016), and for
approximately five (5) months prior to the time of the
judgment of the trial court in this matter. This is an
intervening circumstance of substantial effect

5
because Petitioner sought to introduce this material
by motion prior to the Court’s denial of his writ of
certiorari, but apparently it was not considered by
the Court as it was submitted to close to the Court’s
day for consideration of the underlying writ.
Petitioner obtained the April 20, 2016 Order in
Exhibit A from the public trial record in this case at
the San Mateo Superior County Courthouse in
Redwood City, California. It is signed by the trial
judge in this matter, Hon. Susan Greenberg. It is
therefore a directly related court proceeding and
satisfies Federal Rule of Evidence Rule 201(c).
Granting Petitioner’s Petition for Rehearing
and taking judicial notice of the Order in Exhibit A
would serve to correct a misstatement of fact in the
lower California appellate court’s opinion. See Pet.

6
App. at A13. The specific lower appellate court
misstatement to be corrected was the mistaken
allegation that Petitioner did not at the time of the
trial court judgment have “a permanent address in
California.” Id.

This statement was inaccurate. The lower
appellate court’s misstatement is material because
the panel used this as a basis for its decision and
further, the circumstances under which Petitioner
became a Palo Alto resident, and the reasons
therefor, highlight the unfair effects of a judge’s
failure to timely and accurately disclose campaign
contributions as required by California law. It may
also be that the April 20, 2016 Order was
inadvertently omitted from the record the lower
appellate court reviewed as it rendered its decision,

7
and therefore this is an additional basis for this
Court’s judicial notice and granting of this rehearing
petition. Fed. R. App. P. 10(e)(2)(C); Fed. R. Evid.
Rule 201(c)(2); See, e.g., White v. Gaetz, 588 F.3d
1135, 1137 n. 2 (7th Cir. 2009)(taking judicial notice
of lower court transcript); Daniel v. Paul, 395 U.S.
298, 305 (1969)(approving lower court taking judicial
notice).

III.

Factual Background and Argument
As further stated in his Writ of Certiorari and

Supplemental Brief, Petitioner was kept in the dark
for over a year of pre-trial litigation, and then
through settlement discussions and multiple days of
trial, about the campaign contributions that the

8
Respondent’s attorneys made to the trial judge in
this matter. The Respondent conducted a scorched
earth litigation strategy because she and her
attorneys likely believed they could count on the
judge for a favorable ruling as result of the
contributions. One example of this is the position
Respondent and her attorneys took concerning the
education of the parties’ eldest son.
Trial in this matter commenced in late
September 2015 and concluded in mid-May 2016.
During this trial of custody and financial issues,
Petitioner learned Respondent was planning to send
the parties’ eldest son to a dangerous school with a
very low national ranking (under 1600). At great
personal expense and during trial of this matter

9
where he appeared pro se, Petitioner established
residency in the Barron Park section of Palo Alto, CA
so that his son could instead attend a much better
school in the Palo Alto Unified School District.
The Respondent vigorously opposed the
parties’ eldest son attending Palo Alto schools. She
and her attorneys fought this move, even though the
Palo Alto schools scored more than lOx better in
national and state rankings in comparison to the
school she wanted him to attend. Respondent forced
special litigation over this issue and a separate mini­
trial on educational choice was held. During this
mini-trial, Petitioner entered overwhelming evidence
that the Palo Alto high schools were clearly better for
the parties’ son. Petitioner was forced to fight this
battle as a separate mini-trial, even while also

10
fighting for custody and on financial issues.
Tellingly, in its opinion, the Court used the fact that
Petitioner went to bat for the best education for his
son as a cudgel to say he was “more an advocate than
a father.” In fact, it is highly likely the Respondent
and her attorneys’ belief that they would obtain
favorable rulings from the trial court judge - as a
result of their campaign contributions -- made them
vexatiously litigate every matter, even those that
were totally antithetical to best interests of the
parties’ eldest son. In most cases, they were correct
about the judge’s rulings — they repeatedly obtained
favorable rulings on issues, including those involving
constitutional deprivations.
For the purposes of this motion, Petitioner
would like this Court to take judicial notice of the

11
fact that he was a resident of Palo Alto as evidenced
by Exhibit A and grant this Petition for Rehearing.
Exhibit A clearly states that “...Petitioner, resides in
the Gunn School District at 781 Encina Grande
Drive, Palo Alto, CA 94306...” This was true on the
date of the April 20, 2016 Order and it was true on
the date of the trial court’s judgment (September 16,
2016). As a result of the attached court order and
Petitioner’s residency in Palo Alto, which was part of
the trial record below and was submitted to the
appellate court but appears to have been misplaced,
the parties’ eldest son was enrolled at the Henry M.
Gunn High School in the Palo Alto Unified School
District. The trial court’s April 10, 2016 ruling is a
publicly- available record. It directed the parties’
eldest son was to attend Palo Alto schools, where the

12
Petitioner had established residence in California.
In April 2016, five months prior to judgment, the
trial court so ordered this, the Petitioner established
residence, and the Court was aware that the
Petitioner established residence.2

IV.

Conclusion
Petitioner requests that this Petition for

Rehearing be granted because the new and
intervening fact of the Trial Court’s Order
2 The parties’ eldest son then attended Gunn High
School for four (4) years and recently graduated
because the Petitioner fought for him, and
established and maintained residence in Palo Alto,
CA from April 2016 to the present. By virtue of this,
the parties’ eldest son gained one of the best
educational experiences possible in California in
cutting-edge science and math, in top-notch theatre
and English programs, and in computer science.
Now, he has been accepted to and will attend an Ivy
League institution in Fall 2020 (subject to
coronavirus/covidl9 restrictions).

13
demonstrates in a new way how Petitioner and his
son were harmed by the constitutional deprivations
at trial and also by the lack of legitimate appellate
review. Petitioner respectfully requests that this
Court take judicial notice of the facts in the April 20,
2016 Order attached hereto as Exhibit A to correct
misstatements in the lower appellate court’s opinion,
and consider the effect of this Order and that
Petitioner established residency in Calfornia wellbefore the date of the trial court’s judgment on
September 16, 2016. In summary, Petition was
denied his due process rights to a fair trial and to fair
and accurate appellate review, and he asks this
Court to grant this Petitioner for Rehearing and
grant his Writ of Certiorari so that he might have his

14
appeal to this Court heard and correct the due proces
and other Constitutional infirmities that occurred in
his trial and appeal.
For the foregoing reasons, the Petitioner’s
Petition for Rehearing should be granted.

Respectfully submitted,

Jeremiah F. Manning
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

Dated: July 17, 2020

No. 19-1224
In The
Supreme Court Of The

United States

Jeremiah F. Manning,
Petitioner,
v.
Lucy J. Kim,
Respondent.

On Petition For A Writ of Certiorari
To The Supreme Court of California

RULE 44.2 CERTIFICATION

Jeremiah F. Manning
Pro Se Petitioner
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

Petitioner Jeremiah F. Manning,
pursuant to Supreme Court Rule 44.2, hereby
certifies that the foregoing attached Petition
for Rehearing is limited to other substantial
grounds not previously considered and is
made in good faith and not for delay.
Respectfully submitted,

Jeremiah F. Manning l
Pro Se Petitioner
'
781 Encina Grande Drive
Palo Alto, CA 94306
(917) 742-6157

Additional material
from this filing is
available in the
Clerk's Office.

